Federal Election Commission

 Office of Inspector General




          Final Report

Inspection of FEC Compliance with
   FMFIA/OMB Circular A-123

           June 2014


   Assignment No. OIG-14-01
                 Office of Inspector General’s
Inspection of FEC Compliance with FMFIA/OMB Circular A-123
                      April 2014 Report
The overall objective for this Office of Inspector General (OIG) inspection was to review and assess
the Federal Election Commission’s (FEC) compliance with the Federal Managers’ Financial
Integrity Act (FMFIA) requirements, as prescribed by Office of Management and Budget (OMB)
Circular A-123, and to provide management with recommendations to help strengthen this FEC
function. The OIG conducted this inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency (CIGIE) Quality Standards for Inspections and Evaluations,
January 2011.

                          Noteworthy Accomplishments
   •   The Office of the Chief Financial Officer (OCFO) provides detailed guidance for the annual
       internal control review process to assist program managers to assess and report on internal
       controls.
   •   Four (Public Disclosure, Office of Administrative Review, Reports Analysis Division, and
       Office of Human Resources) of the 15 program offices reviewed are submitting internal
       control review (ICR) reports that describe what was entailed in their annual assessments.
       Program offices are not required to submit an ICR report. Therefore, completing an ICR
       report demonstrates to the OIG that these offices understand the importance of effective
       internal controls.

                                       OIG Concerns
   •   The OCFO’s review procedures for the annual internal control review (ICR) process needs to
       be enhanced to ensure standard operating procedures as outlined in Directive 53 (Internal
       Control Program) are operating effectively and are in compliance with FMFIA and OMB
       Circular A-123.
   •   67% of program offices reviewed do not provide or maintain sufficient documentation to
       evidence compliance with Directive 53.
   •   As required, internal control weaknesses identified in OIG, independent reviews, and other
       government oversight agencies reports are not consistently disclosed by all program offices.
       This increases the risk that control weaknesses may not be properly reported.
   •   There is not sufficient evidence to conclude whether a comprehensive risk assessment is
       consistently performed for all program offices.

More detailed information related to the OIG Concerns can be found in the remainder of this report
(see Executive Summary and Inspection Findings and Recommendations).
OIG Inspection of FEC’s Compliance with FMFIA/A-123

TABLE OF CONTENTS                                                                               Page


EXECUTIVE SUMMARY                                                                               3


FINDINGS AND RECOMMENDATIONS                                                                    5

I. Program Offices are not Complying with Directive                                             5

        Recommendations                                                                         6

        Management Comments                                                                     6

II. Opportunity to Improve the Annual Risk Assessments                                          8

        Recommendations                                                                         8

        Management Comments                                                                     8

III. Review Procedures by OCFO Needs to be Enhanced                                             10

        Recommendations                                                                         10

        Management Comments                                                                     11

Conclusion                                                                                      12


BACKGROUND                                                                                      13


OBJECTIVES, SCOPE AND METHODOLOGY                                                               16


APPENDIX: MANAGEMENT RESPONSE TO THE A-123 INSPECTION REPORT




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         2|Page
Executive Summary
At the Federal Election Commission (FEC), the Office of the Chief Financial Officer (OCFO) has
been delegated operational responsibility for the FEC’s internal control program. The requirement for
federal agencies to have adequate internal controls is mandated by the Federal Managers’ Financial
Integrity Act (FMFIA) and the Office of Management and Budget’s (OMB) Circular A-123 guidance.
According to the FMFIA, “…management is responsible for establishing and maintaining internal
control to achieve the objectives of effective and efficient management operations, reliable financial
reporting and compliance with applicable laws and regulations…” The FEC’s implementation of
FMFIA/OMB Circular A-123 requirements are contained in FEC Directive 53 (Implementation of
OMB Circular A-123: Internal Control Program) which also describes the FEC’s policies and
standard procedures for performing the annual internal control reviews (ICR) at the program office
level. For more detailed explanation of regulations and guidance related to internal controls and
FEC’s compliance procedures, see the Background section (beginning on page 5) of this report.

In order to ensure internal controls are achieving the desired results, periodic assessments are
necessary. In fact, OMB Circular A-123 states “...Federal managers must take systematic and
proactive measures to… (ii) assess the adequacy of internal control in Federal programs and
operations; [and] (iv) identify needed improvements.”

As part of the Office of Inspector General (OIG) fiscal year (FY) 2013 work plan, a review of FEC’s
processes for complying with FMFIA/A-123 was selected. The OIG’s objective for this inspection
was to:
   • determine if the FEC is complying with the requirements of FMFIA and OMB Circular A-
        123;
   • assess whether the FEC's ICR process is adequately designed and operating effectively; and
   • identify any process improvements (best practices), and provide management with
        recommendations to help strengthen this FEC function.

Overall, OIG concludes that the FEC is generally in compliance with FMFIA/OMB A-123 annual
internal control assessment requirements. However, we have identified the following issues and
process improvement opportunities related to the annual ICR process:

1. Program managers are not maintaining nor providing to the OCFO sufficient documentation to
   evidence that ICRs were properly conducted and in compliance with FEC internal control policies
   and procedures as outlined in Directive 53.
2. There is an opportunity for the FEC to improve the risk assessment process. Currently, the
   standard control questionnaire (the Vulnerability Assessment Checklist) only captures general
   control risk. Therefore, all risk associated with a particular program/process is not specifically
   addressed.
3. We believe that OCFO’s review procedures for the ICR process should be enhanced to ensure the
   assessments by program offices are in compliance with Directive 53 and that the FEC is adhering
   to FMFIA/OMB Circular A-123 requirements.


_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         3|Page
OIG notes that OMB is in the process of revising the A-123 guidance. The proposed changes to the
A-123 guidance are documented in the Government Accountability Office’s (GAO) 2013 Green
Book Exposure Draft 1 which was published in September 2013. The final version of the updated
OMB Circular A-123 is expected to be released by the end of calendar year 2014. OIG reviewed the
Green Book Exposure Draft and we do not anticipate any major changes to the internal control
standards as they relate to the FEC. The revised guidance introduces 17 internal control principles
along with related attributes that clarify what is required for an effective internal control system.
Based on these new principles, OIG believes that the FEC will need to improve its current internal
control structure to include policies and procedures for identifying, documenting, and monitoring
internal controls. The recommendations included in this report are provided to help management
improve their current processes and assist with planning for implementing the new internal control
guidance. The recommendations should be incorporated into revised policies and procedures for the
ICR process.




1
 GAO is required to issue standards for internal control in government. These standards, known as the Standards for
Internal Control in the Federal Government (Green Book), provide the overall framework for establishing and
maintaining an effective internal control system. For more information, see the 2013 Exposure Draft, GAO-13-830SP.
_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         4|Page
Inspection Findings & Recommendations
  I.    Program Offices are not Complying with Directive 53

        A. Based on testing performed, OIG determined the following:
           • 10 of 15 program offices reviewed did not submit any                All program managers are
              detailed information in fiscal years 2012 and/or 2013 to           not providing sufficient
              formally document the program(s) reviewed and the                  information to support the
              procedures performed during the annual internal control            annual internal control
              review process. Therefore, the OIG concludes that 67%              review.
              (10 of 15) of program offices are not properly
              documenting their annual internal control reviews.

            •   3 of 5 program managers interviewed for this inspection do not prepare any supporting
                documentation to evidence steps completed during the annual review process.

            According to OMB Circular A-123 (A-123), “…Documentation should be appropriately
            detailed and organized and contain sufficient information to support management’s
            assertions...”

            According to Directive 53, “…documentation of final reviews and summaries should
            reside with the OCFO whereas detailed backup should stay with program offices. The
            documentation should be maintained for a period of at least two years for record-keeping
            purposes.”

            Failure to properly document the ICR process increases the risk that an adequate review
            was not performed. In addition, the lack of evidence to support the risk assessments may
            reduce the reliability of the assurance certification made by program offices on the
            effectiveness of internal controls to prevent and detect waste, fraud, abuse, and misuse.

        B. Two program offices did not disclose in their ICR package unrectified internal control
           weaknesses reported in prior OIG and independent contractors’ reports as follows:

            •   Neither the Office of the General Counsel (OGC)
                nor the Office of the Chief Information Officer (co-         Co-privacy program
                program offices for privacy) disclosed control issues        managers did not
                reported in the OIG Privacy Follow-up Audit in their         disclose control issues
                FY 2012 and FY 2013 ICR package. Based on a                  reported by OIG in their
                discussion with one of the program managers, he              ICR package.
                didn’t think the related issues needed to be included
                in OGC’s ICR package.

            •
            Office of the Chief Information Officer’s (OCIO) ICR package did not disclose the
            information technology security internal control weaknesses from the FEC’s annual
            financial statement audits in the FY 2012 or FY 2013 assurance letters.
_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         5|Page
                Also, OCIO did not disclose data breaches and other control weaknesses from other
                audit reports (i.e. Inspection of the FEC’s Disaster Recovery Plan and Continuity of
                Operations Plans) in the FY 2012 and FY 2013 assurance letters. When OIG
                followed-up with the Deputy CIO to determine the reasons the internal control
                weaknesses were not included in the OCIO’s assurance letters, the Deputy CIO stated
                that he didn’t think it was necessary to include the control issues and corrective
                actions in the ICR packages because the details were already documented in the
                applicable reports’ corrective action plans (CAP). While OIG recognizes that program
                offices have limited resources and thus may strive to prevent duplicating work, it can
                not come at the expense of not complying with FEC policies and procedures or
                implementing federal regulations and guidance, and therefore the internal control
                weaknesses should have been included in the OCIO’s ICR package.

            According to Directive 53, “…The program managers will evaluate all internal control
            processes on an ongoing basis,…and report all findings and corrective actions taken in
            their annual report…Problems or weaknesses requiring immediate corrective action will
            be included in the program managers’ annual internal control reports as part of their
            letters of assurance…”

            In addition, OIG notes that according to FMFIA
            reporting requirements and Directive 53, all control       Per FMFIA, all control
            issues should be reported internally and material          issues should be reported
            control weaknesses along with corrective actions           internally and material
            taken are required to be included in the agency’s          control weaknesses must be
            annual assurance letter. Failure to disclose or            included in the agency’s
            include the referenced documents that list all             annual assurance letter.
            internal control issues in the annual ICR package
            compromises the accuracy of the internal control assessments at the program office level.
            In addition, if aggregate control issues that constitute a material control weakness are not
            identified and thus not disclosed as such in the agency’s assurance letter to the President,
            this could have an adverse effect on the agency’s compliance with the law.

        Recommendations
        1. The Office of the Chief Financial Officer (OCFO) should ensure sufficient information is
           included in the internal control review (ICR) packages submitted by program offices by
           making the ICR report mandatory.

                Management Response:
                OCFO Management partially agrees with recommendation number one.

                The OCFO agrees with the OIG’s conclusion that “the FEC is generally in compliance
                with FMFIA/OMB A-123 annual internal control assessment requirements.” Under
                the guidance of Directive 53, the Commission delegated the responsibility to program
                managers to exercise professional judgment and assess the internal controls for their
                areas. The program managers complied with the guidance.

_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         6|Page
                While the OCFO does not agree with the recommendation to make the ICR Report
                mandatory, the OCFO does agree to enhance its guidance and documentation as
                appropriate. Specifically, program managers will be reminded that sufficient
                documentation must be maintained to support that internal controls were properly
                reviewed. The OCFO’s guidance for the Internal Control Review process will include
                a comparison of OIG findings to the feedback received from the program managers. If
                discrepancies are noted, the OCFO will discuss the matter with the appropriate
                managers to determine the status of the findings and the implications for the internal
                control of that program. The outcome of this process will be documented.

                OIG Comment:
                The OIG believes that making the ICR report mandatory is a best practice and should
                be considered by Management. In addition, summarizing and standardizing all the
                information required to support the ICR process into one document (the ICR report)
                would be more efficient. However, the corrective actions planned by Management
                should address this recommendation. OIG looks forward to reviewing the controls to
                be implemented to ensure that sufficient information is provided by management to
                support the assurance given.

        2. As a best practice, the ICR Report should be standardized to include the following
           information:
           o List of all programs/processes applicable and unique to the office/division;
           o Brief description of each program's key controls with reference to pertinent
               policies/standard operating procedures;
           o Summary of the annual internal control review including any specific programs that
               were assessed;
           o Results and conclusion(s) of the review(s) including any internal control issues
               identified along with corrective actions planned/implemented (NOTE: If there is an
               applicable corrective action plan that addresses the corrective actions related to control
               issues/weaknesses included, then the ICR report only needs to reference the CAP);
               and
           o Summary of control issues reported by OIG, other regulatory bodies, and/or
               independent reviews along with reference to any CAP(s).

                Management Response:
                OCFO Management partially agrees with recommendation number two. See response
                to recommendation number one above.

                OIG Comment:
                See comment to Management response to recommendation number one.




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         7|Page
 II.    Opportunity to Improve the Annual Risk Assessments

        The standard questions included in the Vulnerability Assessment Checklist (VAC) only
        capture and rate general risk related to any FEC program offices.
                                                                                 The VAC does not
        However, the VAC does not capture potential risk unique to a
                                                                                 capture potential
        particular FEC program (which is known as “inherent risk”). In           risk unique to each
        addition, as most program offices are not providing or maintaining       program office.
        supporting documentation to describe the risk assessments
        performed, OIG is unable to confirm if the annual risk assessments
        conducted are adequate to substantiate the level of assurance required by Directive 53 and the
        FMFIA. The risk assessments at the program level would be more effective if specific control
        objectives and related inherent risks were identified, evaluated, and documented.

        According to A-123, “…The agency head must describe the analytical basis for the type of
        assurance being provided, and the extent to which agency activities were assessed…;” and
        according to Directive 53, “Each program manager must evaluate risks associated with his
        or her program.”

        OIG notes that all current program managers have not been
                                                                                  All program
        trained on the ICR process and how to conduct a risk assessment,
                                                                                  managers have not
        and may not understand what level of detail/information that
                                                                                  been trained on the
        should be documented. Maintaining sufficient documentation is
                                                                                  ICR process.
        necessary to evidence compliance with the risk assessment
        process and to support the level of assurance given for each
        program.

        Recommendations
        3. Once the new A-123 guidance is finalized, OCFO should revise the Vulnerability
           Assessment Checklist (VAC) to ensure it is aligned with the updated control objectives
           and their related principles and attributes.

            Management Response:
            Management agrees with recommendation number three. The OCFO agrees that the VAC
            will be addressed once the new A-123 is issued. For comparative purposes, however, a
            VAC should be general enough to cover all the common elements of all the program
            offices.

            OIG Comment:
            The OIG looks forward to reviewing Management’s corrective action plan to ensure it
            fully addresses this recommendation.

        4. OCFO should require any item marked as high risk on the VAC is explained in the
           respective program office’s ICR Report.




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         8|Page
                Management Response:
                OCFO Management partially agrees with recommendation number four. The OCFO
                does not plan to make the ICR Report mandatory (see Management Response to
                recommendation number one). However, the VAC will be supplemented to identify
                top risk factors and the impact if that risk is not mitigated. In the past few years, the
                OCFO has queried program managers about all the VAC items marked as high. As
                stated above, however, Directive 53 assigns program managers the responsibility to
                exercise their professional judgment in preparing their ICR reports if deemed
                necessary. As previously discussed with the OIG in December 2013 and January
                2014, OCFO Management would like to wait until a new A-123 is released to review
                and update the annual ICR process.

                OIG Comment:
                The OIG believes that summarizing all supplemental information required to support
                the ICR process should be consolidated into one document (the ICR report). Creating
                a standard ICR report template would streamline the ICR process and would improve
                the efficiency of OCFO’s review of all program offices ICR packages. OIG looks
                forward to reviewing OCFO Management’s corrective action plan to ensure that it
                fully addresses this recommendation.

        5. As a best practice, program managers with the assistance of OCFO, should be trained on
           how to conduct an inherent risk assessment for all mission critical programs. Going
           forward, these inherent risk assessments should be reviewed annually as part of the ICR
           process.

                Management Response:
                OCFO Management partially agrees with recommendation number five. When the
                revised GAO Green Book and the updated version of A-123 are available, the OCFO
                will address the FEC’s Internal Control guidance and provide a training to appropriate
                program managers. The OCFO is unclear about the relationship between ‘potential
                risk unique to a particular FEC program’ and ‘inherent risk’ as mentioned in the IG’s
                recommendation number five above. Internally, the OCFO has its own determination
                of ‘inherent risk assessment’ that is different from the risk assessment for the annual
                ICR process.

                OIG Comment:
                For the purpose of the readers of this report, “potential risk unique to a particular FEC
                program” was meant to explain the term “inherent risk” and thus used
                interchangeably. The OIG looks forward to reviewing corrective actions planned by
                Management to ensure that it fully addresses this recommendation.




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         9|Page
III.    Review Procedures by OCFO Needs to be Enhanced

        Based on the OIG’s review of FEC’s ICR process and
        procedures, we believe that the OCFO is performing some               OCFO is not
        review procedures for the ICR process. However, the OCFO              obtaining sufficient
        review process is not an effective monitoring control to              information to
        ensure that program managers are providing complete and               perform adequate
        accurate information to substantiate the assurance given.             review procedures.
        OIG concludes that this is mainly because program offices
        do not provide sufficient documentation to OCFO on the
        results of the program offices’ reviews.

        According to Directive 53:“…the Commission delegates operational responsibility for the
        FEC’s internal control program to the CFO…”

        While OIG does agree that OCFO is not directly responsible for the internal control reviews
        of each program office, and that OCFO must rely on the
        results of the assessments made at the program level,           Adequate review
        adequate review procedures are necessary to ensure all          procedures are necessary
        internal control issues are properly identified and evaluated   to ensure all control
        for the agency’s annual assurance certification. In addition,   issues are properly
        the OIG also notes that the review procedures under the         identified and evaluated.
        current internal control standards are expected to be
        expanded as oversight is one of the main internal control
        principles that will be added to the revised GAO Green Book.

        According to the Standards for Internal Control in the Federal Government: 2013 Exposure
        Draft:
               “…The oversight body oversees management’s design, implementation, and operation
               of the entity’s internal control system. The oversight body’s responsibilities for the
               entity’s internal control system include:
               …Monitoring - Scrutinize the nature and scope of management’s monitoring activities
               as well as management’s evaluation and remediation of identified deficiencies...”

        Failure to report known internal control weaknesses increases the risk that the agency will not
        be in compliance with applicable laws, regulations, and guidance.

        Recommendations
        6. The OCFO should improve their review process by paying special attention to the
           methodologies for the risk ratings and explanations of control issues for reasonableness,
           and to ensure all internal control issues are properly reported and potential material
           control weaknesses are identified.

                Management Response:
                OCFO Management partially agrees with recommendation number six.

_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         10 | P a g e
                With only operational responsibility delegated by Directive 53 to CFO, the OCFO will
                consider the OIG concerns when preparing the annual internal control guidance for
                Fiscal Year 2014. Please see the management responses above for what the OCFO
                plans to do in this regard.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management to
                ensure that it fully addresses this recommendation. OIG also notes that given the fact
                that OCFO has been delegated operational responsibility for implementing the FEC’s
                internal control program, and the CFO Report includes a recommendation whether the
                Commission can “provide reasonable assurance that the FEC’s internal controls are
                adequate and operating effectively”, gives the OCFO implied responsibility to ensure that
                (1). The ICR process is being complied with; and (2). Assessments by program offices
                are sufficient and reasonable.

        7. After the new A-123 guidance is finalized and implemented by OCFO, OCFO should
           conduct agency-wide training on the ICR process for all program offices and designated
           program managers.

                Management Response:
                OCFO Management agrees with recommendation number seven. When the revised
                GAO Green Book (Green Book) and the updated version of OMB’s Circular A-123
                (A-123) guidance are available, the OCFO expects to address the FEC’s Internal
                Control guidance and provide a training to appropriate program managers.

                OIG Comment:
                The OIG looks forward to reviewing corrective actions planned by Management to
                ensure that it fully addresses this recommendation.

        8. Going forward, OCFO should require any new designated program managers to be
           identified at the start of the agency-wide A-123 review process, and OCFO should ensure
           that all new program managers are trained on the ICR process before conducting their first
           review.

                Management Response:
                OCFO Management agrees with recommendation number eight. See Management
                response to recommendation number seven above.

                OIG Comment:
                OIG believes management’s corrective action plan may not be adequate to address this
                recommendation. Once the initial training on the new guidance is conducted, a control
                will need to be put in place to ensure any new program managers designated after the
                initial training is conducted is identified and trained before they are required to
                perform an internal control review. The OIG looks forward to reviewing corrective
                actions planned by Management to ensure that it fully addresses this recommendation.

_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         11 | P a g e
Conclusion

OIG concludes that while the FEC is generally complying with the FMFIA/A-123 requirements, the
supporting documentation maintained and provided to the OCFO by program offices is not always
sufficient to evidence compliance with A-123 guidance. However, we believe there is an opportunity
to strengthen the annual risk assessment process. For example, all potential risk associated with a
particular program/office should be identified and assessed to determine if existing internal controls
are sufficient to mitigate the risk to an acceptable level. By improving the annual risk assessment
process, implementing additional monitoring controls, and providing training to program managers,
the FEC will have a more effective and robust assessment process and thus a stronger overall control
environment.




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         12 | P a g e
Background
The overarching legislation regarding internal controls in federal agencies is the Federal Managers’
Financial Integrity Act of 1982 (FMFIA) as codified in 31 U.S.C. 3512.

According to the FMFIA:

        “Management is responsible for establishing and maintaining internal control to achieve the
        objectives of effective and efficient management operations, reliable financial reporting and
        compliance with applicable laws and regulations."

The Office of Management and Budget (OMB) issued guidance for implementing the requirements of
the FMFIA through OMB Circular A-123. In December 2004 OMB Circular A-123 (“A-123”) was
revised and consolidated other regulations applicable to internal controls into one document to
include the Federal Financial Management Improvement Act of 1996 (FFMIA, formerly OMB
Circular A-127), and the Improper Payments Elimination and Recovery Act of 2010 (IPERA).

According to A-123:

        “Internal control comprises the plans, methods, policies, and procedures used to fulfill the
        mission, strategic plan, goals, and objectives of the organization. Internal control serves as
        the first line of defense in safeguarding assets and preventing and detecting errors and
        fraud...”

Circular A-123 requires federal agencies to:

    •   annually assess whether the internal controls in federal programs and operations are in
        compliance with FMFIA;
    •   identify control weaknesses along with corresponding corrective actions;
    •   provide annual management assurance statements;
    •   plan, document, and test internal controls over financial reporting (as defined in Appendix A);
    •   annually assess controls over charge card programs (as defined in Appendix B);
    •   annually assess improper payments (as defined in Appendix C);
    •   establish and annually report on the recovery audit program according to IPERA (as defined
        in Appendix C); and
    •   annually assess and test controls over financial systems (as defined in Appendix D).

The Federal Election Commission (FEC) is exempt from the requirement in Appendix A to document
and annually test internal controls over financial reporting since the FEC is not a Chief Financial
Officers Act agency. However, the FEC is required to perform an annual assessment of internal
controls and provide an assurance letter that certifies the agency’s internal controls can reasonably be
relied on to prevent and detect waste, fraud, and abuse.

The FEC updated and adopted Directive 53 (effective as of December 15, 2010) to document the
FEC’s policies and standard procedures for implementing an internal control program that complies
_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         13 | P a g e
with FMFIA/A-123. Through Directive 53, the Commission has delegated operational responsibility
for the FEC’s internal control program to the Chief Financial Officer (CFO). Directive 53 also gives
detailed guidance on how program offices should conduct risk assessments. A risk assessment is a
process whereby all potential risk associated with a particular program or activity is identified and
evaluated to determine if adequate internal controls are in place and operating effectively to mitigate
the risk or reduce the risk to an acceptable level. Risks are not limited to potential fraud, waste, and
abuse; but also include, failure to achieve the agency’s mission, comply with laws, regulations,
guidance, and/or reputational harm to the agency.

FEC’s annual internal control review (ICR) process normally takes place in August and covers the
current fiscal year which ends on September 30 of the same year. Currently, there are 16 FEC
program offices (including the Office of Inspector General) that perform individual ICRs. Each
program office designates a program manager who is responsible for the internal control program for
their respective office or division.

The program managers are instructed to review applicable programs/processes, conduct a risk
assessment of their respective programs/processes, document the results of the assessments, and
identify any control weaknesses along with recommended corrective action plan(s). In addition, the
program managers have to complete the Vulnerability Assessment Checklist (VAC) which requires
the program managers to rate general internal control questions. For example, one of the questions in
the VAC asks the offices/divisions whether clear and concise operating procedures are in place.

Based on the results of the ICR, the program managers must provide a statement of assurance on
whether they can give “reasonable assurance that the government funds or assets under their
respective programs are adequately safeguard from potential waste, fraud, abuse, or misuse.” The
statement of assurance is provided in the form of a letter and the assurance letters must be signed by
the applicable division/office head. The program managers have an option to document the results of
their review in a separate ICR Report. Otherwise, the required information must be incorporated in
the VAC and/or assurance letter.

The complete ICR package is forwarded to the OCFO. The ICR package consists of the following.

    1.   Assurance Letter
    2.   ICR Report (optional)
    3.   Vulnerability Assessment Checklist
    4.   List of Policies and Procedures for the office/division

The ICR documents serve as the basis for forming an agency-wide statement of assurance. The
OCFO reviews all the ICR packages for completeness and to identify any changes/fluctuations to
internal control risk levels from the prior year. Any major changes are followed-up with the
appropriate program manager to determine the reason for the changes. The OCFO prepares an
agency-wide internal control report (CFO Report) that consolidates and summarizes the results of all
the program offices ICR packages and submits the report to the Commission. The CFO Report also
includes a recommendation by the CFO as to whether the Commission can rely on the FEC’s internal
controls and should give reasonable assure to prevent fraud, waste, and abuse.

_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         14 | P a g e
Based on this report, the Chair, on behalf of the Commission, will sign the formal Assurance
Statement on Internal Control. A separate assurance letter is mailed to the President of the United
States and is also included in the annual Performance and Accountability Report (PAR).

OIG notes that OMB is in the process of revising the A-123 guidance. The preliminary changes to the
A-123 guidance are documented in the Government Accountability Office’s (GAO) exposure draft,
Standards for Internal Control in the Federal Government: 2013 Exposure Draft, GAO-13-830SP
(“The Green Book Exposure Draft”) which was published in September 2013. A-123 guidance is
being revised to incorporate key concepts from the 2013 Committee of Sponsoring Organizations of
the Treadway Commission (COSO) 2 internal control integrated framework for the government
environment. Per OIG review of “The Green Book Exposure Draft”, we conclude that there are no
conceptual changes to the standards on internal controls. The new guidance will introduce 17
principles along with detailed explanations (referred to as attributes) that clarify what is required for
an agency’s internal control program to be considered effective. The updated version of OMB
Circular A-123 is expected to be released in the later part of calendar year 2014.




2
 COSO is a national private sector organization dedicated to improving the quality of financial reporting through
business ethics, effective internal controls, and corporate governance and is recognized as a thought leader in the global
marketplace on the development of guidance in the areas of risk and controls. See COSO Internal Control - Integrated
Framework (May 2013)
_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         15 | P a g e
OBJECTIVES, SCOPE AND METHODOLOGY
Objectives
The OIG’s objective for this inspection was to determine if the FEC is complying with the
requirements of FMFIA and OMB Circular A-123, to assess whether the FEC's annual internal
control review process is adequate, and provide management with recommendations to help
strengthen this FEC function.

Scope
The scope of the inspection included review of FEC’s FMFIA and A-123 compliance procedures
performed during FYs 2012 and 2013.

Methodology – The OIG conducted the following inspection steps:
• The OIG reviewed FEC’s policies and procedures for compliance with FMFIA and OMB A-123
  requirements to ensure adequate management processes and controls are in place.

•   Researched regulations and guidance related to internal controls including FMFIA, and OMB
    Circular A-123.

•   Reviewed GAO’s exposure draft (Green Book) of new A-123 guidance expected to be issued in
    the latter part of calendar year 2014 to determine if any major changes will be required for FEC.

•   Interviewed the Acting Accounting Director to gain a better understating of the FEC’s annual
    internal control review process.

•   Reviewed all 15 program offices’ ICR packages submitted for FYs 2012 and 2013.

•   Conducted interviews of five (5) program offices (Office of the Chief Information Officer, Office
    of the General Counsel - Litigation, Office of Administrative Review, Reports Analysis Division,
    and Administrative Services Division) to discuss their annual internal control review process, to
    include:
    o The steps included in the program offices’ review process;
    o The methodology for selecting programs to review;
    o The resources/documents that are utilized during the assessment phase; and
    o How the program office determines the team members to assist with the annual review
        process.




_________________________________________________________________________________
Office of Inspector General’s Inspection of the Federal Election Commission’s Compliance with FMFIA/A-123
2014 Report         16 | P a g e
                     THE FEDERAL ELECTION COMMISSION
                     Washington, DC 20463



 Appendix: Management Response
 June 10, 2014


 MEMORANDUM	

 TO:                 Lynne A. McFarland
                     Inspector General

 FROM:               Judy Berning
                     Acting Chief Financial Officer

 SUBJECT:            Responses to Office of Inspector General’s Inspection of the Federal Election
                     Commission’s Compliance with FMFIA/A-123 2014 Report


 The Federal Election Commission (FEC) strives to maintain internal controls at a level sufficient to
 manage risk and provide program integrity while realizing that it’s impossible to eliminate all risk and
 it is cost effective to accept a tolerable level of risk. OCFO Management appreciates the opportunity
 to comment on the Office of Inspector General’s (OIG) draft report. While the OCFO would like to
 wait for an official release of GAO Green Book (Green Book) and revised OMB Circular A-123 (A-
 123), the OCFO will consider the OIG concerns when preparing the annual internal control guidance
 for Fiscal Year 2014, wherever deemed appropriate.


     Recommendations:

I.      Program Offices are not Complying with Directive

        OCFO Management partially agrees with recommendation number one and two.

        The OCFO agrees with the OIG’s conclusion that “the FEC is generally in compliance with
        FMFIA/OMB A-123 annual internal control assessment requirements.”

        Under the guidance of Directive 53, the Commission delegated the responsibility to program
        managers to exercise professional judgment and assess the internal controls for their areas. The
        program managers complied with the guidance.

        While the OCFO does not agree with the recommendation to make the Internal Control Review
        (ICR) Report mandatory, the OCFO agrees to enhance its guidance and documentation as
        appropriate. Specifically, program managers will be reminded that sufficient documentation must
        be maintained to support that internal controls were properly reviewed. The OCFO’s guidance for
                                                                                                       1
       the Internal Control Review process will include a comparison of OIG findings to the feedback
       received from the program managers. If discrepancies are noted, the OCFO will discuss the
       matter with the appropriate managers to determine the status of the findings and the implications
       for the internal control of that program. The outcome of this process will be documented.

 II.   Opportunity to Improve the Annual Risk Assessments

       OCFO Management agrees with recommendation number three. We agree that the Vulnerability
       Assessment Checklist (VAC) should be updated once the new A-123 guidance is issued. For
       comparative purposes, however, a VAC should be general enough to cover all the common
       elements of all the program offices. The VAC will be supplemented to identify a top risk factor
       and the impact if that risk is not mitigated.

       OCFO Management partially agrees with recommendation number four. In the past few years, the
       OCFO has queried program managers about all the VAC items marked as high. As stated above,
       however, Directive 53 assigns program managers the responsibility to exercise their professional
       judgment in preparing their ICR reports if deemed necessary.

       OCFO Management partially agrees with recommendation number five. When the revised GAO
       Green Book and the updated version of A-123 are available, the OCFO will address the FEC’s
       Internal Control guidance and provide a training to appropriate program managers. The OCFO is
       unclear about the relationship between ‘potential risk unique to a particular FEC program’ and
       ‘inherent risk’ as mentioned on Page 7 of the IG report. Internally, the OCFO has its own
       determination of ‘inherent risk assessment’ that is different from the risk assessment for the
       annual ICR process.

III.   Review Procedures by OCFO Needs to be Enhanced

       OCFO Management partially agrees with recommendation number six. With only operational
       responsibility delegated by Directive 53 to CFO, the OCFO will consider the OIG concerns when
       preparing the annual internal control guidance for Fiscal Year 2014. Please see the management
       responses above for what the OCFO plans to do in this regard.

       OCFO Management agrees with recommendation number seven and eight. When the revised
       GAO Green Book and the updated version A-123 guidance are available, the OCFO expects to
       update the FEC’s Internal Control guidance and provide a training to appropriate program
       managers.

       While it might be true to say the ‘Green Book Exposure Draft’ presents ‘no conceptual changes to
       the standards on internal controls’, this ignores the significance of A-123 which offer guidance as
       to how to implement the new COSO framework and the Green Book.

       Last fall, the OMB collected forty-three suggestions from various agencies on how to update its
       A-123 with the ‘Green Book Exposure Draft.’ Since the Green Book places a greater emphasis on
       program operation, one of the most popular suggestions is to ask for guidance on how to
       implement internal control assessment on program operations. One has to note that A-123 was
       originally designed for financial audits.

       Following the new COSO framework, the Green Book does emphasize the independence of the
       oversight body. Based on information received from recent conferences hosted by GAO and
                                                                                                        2
OMB, however, it is still unclear how federal agencies may implement the concept of oversight
body.

The two examples above are used to illustrate that having implementation guidance from a new A-
123 will indeed be helpful. As previously discussed with the OIG in December 2013 and January
2014, therefore, OCFO Management would like to wait until a new A-123 is released to review
and update the annual ICR process.




                                                                                             3
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
